No. 20-941

IN THE SUPREME COURT OF THE UNITED STATES

GREGORY ATKINS, et al.,
Petitioners,

v.
DR. KENNETH WILLIAMS, |

Medical Director, Tennessee Department of Correction, in his official capacity,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals for the Sixth Circuit
CERTIFICATE OF SERVICE

I, Sarah K. Campbell, counsel of record for Respondent, Dr. Kenneth
Williams, and a member of the Bar of this Court, certify that on the 12th day of
March, 2021, Respondent’s Brief in Opposition was sent via FedEx two-day service
to the U.S. Supreme Court and, pursuant to this Court’s order dated April 15, 2020,
and with counsel’s consent, an electronic copy was served on the following counsel:

Michael J. Wall

Branstetter, Stranch & Jennings, PLLC

223 Rosa L. Parks Avenue, Suite 200

Nashville, Tennessee 37203

michaelw@bsjfirm.com

Counsel for Petitioners
I further certify that all parties required to be served have been served.

March 12, 2021

    

SARAH K. CAMPBELL
Associate Solicitor General
P.O. Box 20207

Nashville, TN 37202

(615) 532-6026
sarah.campbell@ag.tn.gov

Counsel for Respondent
